                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




      AUDIT OF THE VOLUNTEERS IN SERVICE TO
      AMERICA MEMBER SUPPORT UNIT (VMSU)

                     OIG REPORT 10-16




                  1201 New York Ave, NW 

                        Suite 830 

                   Washington, DC 20525 


                        (202) 606-9390




This report was issued to Corporation management on June 14, 2010. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later
than December 14, 2010 and complete its corrective actions by June 14, 2011.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                          OFFICE OF INSPECTOR GENERAL

                                            June 14, 2010

TO:           Patrick A. Corvington
              Chief Executive Officer

              Paul Davis
              Acting Director, AmeriCorps*VISTA

              Jerry Thompson
              Director, VISTA Member Support Unit

FROM: 	       Stuart Axenfeld   ~ A~
              Assistant Inspector General for Audit

SUBJECT: 	    Office of Inspector General (OIG) Report 10-16: Audit of the Volunteers in
              Service to America Member Support Unit (VMSU)

Attached is the final report on the OIG's audit of the VMSU. This audit was performed by OIG
staff in accordance with generally accepted government auditing standards.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by December 14, 2010. Notice of final action is due by June 14, 2011.

If you have questions pertaining to this report, please contact me at (202) 606-9360 or
s.axenfeld@cncsoig .gov; or Thomas Chin, Audit Manager, at (202) 606-9362 or
t.chin@cncsoig.gov.

Attachment

cc: 	 James Siegal, Chief of Staff
      Kristin McSwain, Chief of Program Operations
      William Anderson, Chief Financial Officer
      Rocco Gaudio, Deputy Chief Financial Officer for Grants and Field Financial Management
      Mike Berning, Director of Field Liaison
      Carol Rogers, VISTA Director, Program Evaluation & Planning
      Andrea Grill, Associate General Counsel, Office of General Counsel
      Claire Moreno, Audit Liaison, Office of Grants Management
      Bridgette Roy, Administrative Assistant, Office of the CFO




                      1201 New York Avenue, NW      *
                                                    Suite 830      *  Washington, DC 20525
                          202-606-9390  *
                                        Hotline: 800-452-8210       *  www.cncsoig.gov

                           Senior Corps   *   AmeriCorps   *   Learn and Serve America
                                                            CONTENTS

Section                                                                                                                        Page

Executive Summary ........................................................................................................... 1


Audit Conclusions .............................................................................................................. 1 


Results of Audit .................................................................................................................. 2 


Objective, Scope, and Methodology .................................................................................. 8 


Background ........................................................................................................................ 8 


Exit Conference .................................................................................................................. 9 




Appendices

A:   Corporation’s Response to Draft Report
B:   Table of Sampled Files with Missing Documents
C:   Table of Sampled Files with Documents Lacking Signatures
D:   Table of Sampled Files with Insufficient or Missing Proof of Legal Residency


                                                    TABLE OF ACRONYMS

      ARRA                        American Recovery and Reinvestment Act of 2009
      C.F.R.                      Code of Federal Regulations
      Corporation                 Corporation for National and Community Service
      CSO                         Corporation State Office
      DL                          Driver’s License
      DVSA                        Domestic Volunteer Service Act of 1973
      HQ                          Headquarters
      IST                         In-service Training
      Legal Residency             U.S. Citizen, National or Legal Permanent Resident Alien Status
      NCSA                        National Community Service Act of 1990
      OFL                         Office of Field Liaison
      OIG                         Office of Inspector General
      PII                         Personally Identifiable Information
      SSN                         Social Security Number
      TCB                         Terms, Conditions, and Benefits Certification
      U.S.C.                      United States Code
      VDR                         VISTA Desk Reference
      VISTA                       Volunteers in Service to America
      VMSU                        VISTA Member Support Unit
                                  EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an audit of the Volunteers in Service to America (VISTA)
Member Support Unit (VMSU), which is located in Austin, Texas. Our objectives were
to determine whether member files were complete; payments of living allowances,
education awards, and stipends were supported; personally identifiable information was
protected; and internal controls were adequate.

The Corporation established VMSU in October 2007 to provide administrative support to
VISTA members and alumni; and it serves as the repository for VISTA member files.
The Director of VMSU reports directly to the Director of the Office of Field Liaison (OFL)
in Washington, DC. A review team, which was comprised of Corporation staff from the
OFL and VISTA Headquarters (HQ), conducted a site visit in March 2009 to assess
operations at the VMSU and determine how the VMSU was handling its current
workload, managing VISTA member files, and supporting VISTA members and alumni,
as well as to assess whether the VMSU was prepared to meet the demands of an
increase in the number of VISTA members serving as a result of the American Recovery
and Reinvestment Act. The review team concluded that 35 percent of the files it
sampled were not complete. Documents missing from member files included citizenship
documentation; sponsor recommendation; and Terms, Conditions, Benefits (TCB)
Certifications.

Our site visit during the week of December 14, 2009 provided results similar to the
results of the Corporation’s review team’s March VMSU visit. We randomly selected and
reviewed for completeness the files of 40 VISTA members serving at any time between
October 1, 2008, and December 9, 2009. Thirty-five percent of the member files we
sampled were not complete. In addition, 15 percent of the sampled member files were
missing multiple documents. Missing documents included the VISTA Oath of Service,
TCB Certifications, and documentation of citizenship, national or legal permanent
resident alien status (hereafter referred to as legal residency).

The Corporation’s responses to recommendations in a draft of this report generally met
the intent of the recommendations. However, in some instances, the responses did not
specifically address the recommendations. We summarized the Corporation’s responses
to each recommendation in the body of the report, which are followed by our comments.
The Corporation’s verbatim response to the draft report is included as Appendix A.


                                  AUDIT CONCLUSIONS

Member files maintained by the VMSU were not complete. We verified that payments
for living allowances, education awards, and stipends were valid and supported by
appropriate evidence. The VMSU did not have written operating policies and
procedures. However, Personally Identifiable Information (PII) was adequately
safeguarded. VMSU’s lack of approved operating policies and procedures is an internal
control weakness.

Neither the Corporation, VISTA HQ, nor VMSU have issued specific guidance for VMSU
operations. The VMSU does not have written operating policies and procedures in place
that provide guidance and define its’ purpose. However, an unfinished draft VMSU


                                            1

Policies and Procedures Manual was provided to the OIG during the VMSU site visit.
Because VISTA does not have specific implementing guidance regarding legal residency
and eligibility requirements for VISTA members, 19 of the 40 VISTA members sampled
may receive end of service education awards for which they may not be eligible to
receive (see finding 4).

We found that, although the VMSU is responsible for maintaining member files, VMSU
employees are not responsible for ensuring members complete the documents or for
collecting documents directly from members. The VMSU can only make requests to
Corporation State Offices (CSOs) to forward missing paperwork (electronic or hard copy)
for inclusion in a member’s file. Further, the VMSU does not have the authority to return
incomplete documents or forms to the CSOs and require the CSOs to properly complete
and/or sign the forms. The following table provides a summary of missing or unsigned
documents identified during our review of selected member files.

                    SUMMARY OF MISSING OR UNSIGNED DOCUMENTS
                             Form                         Missing          Unsigned
   Oath of Service (V-55)                                    1                  0
   Designation of Beneficiary for Unpaid Wages (SF1152)      3                 21
   Terms, Conditions and Benefits Certification              4                  0
   Future Plans/Early Termination (V-732)                    4                  4
   Employee’s Withholding Allowance Certificate (W-4)        4                  0
   Life Insurance Designation of Beneficiary (CNCS A-582)    3                  0
   Proof of Citizenship/Permanent Legal Resident Alien       3                  0
   Use of Vehicles or Public Transportations (V-81)          0                  1



                                   RESULTS OF AUDIT

Finding 1. 	 The VMSU lacked approved written operating policies and
             procedures.

Although the Corporation established the VMSU in October 2007 at the time of our site
visit, during the week of December 14, 2009, the VMSU did not have written operating
policies and procedures in place. The legislation under which the VISTA program
operates is the Domestic Volunteer Service Act of 1973, Pub. L. 93-113, 42 United
States Code (U.S.C.) §§4950-5084 (DVSA). This law, as amended by the Serve
America Act of 2009, Pub. L. 111-13, outlines the purpose and parameters within which
VISTA may operate. The statute is very broad, leaving the details of implementation of
the statute to the Corporation. Unlike other AmeriCorps programs, many aspects of the
AmeriCorps*VISTA program have not been further defined through the implementation
of regulations by the Corporation.

The Corporation has posted the AmeriCorps*VISTA Desk Reference (VDR) on its
internal website. The VDR serves as a compendium of policies and procedures, training
and orientation manual for new staff, and a reference tool for staff. The VDR is
considered a living document and has several chapters in an “in preparation” status.
The VDR does not specifically address the operations of the VMSU, but does provide
indirect guidance related to VISTA members. VMSU employees learn VMSU practices
by on-the-job training, team meetings, and other correspondence. However, the


                                           2

absence of implementing regulations and clear written policies and procedures could
lead to inconsistent interpretation and application of the DVSA and VMSU policies and
procedures.

Recommendations

We recommend that the Corporation:

    1a.   Establish VISTA regulations that implement applicable public law; and

    1b.   Approve written operating policies and procedures for the VMSU.

    Corporation Response

    The Corporation agrees with the recommendations and is in the process of revising
    its regulations, which are currently located at 45 C.F.R., Chapter XII. Specific VMSU
    procedures will be implemented through internal policy and guidance. On January
    15, 2010 the Director of the OFL signed off on the VMSU’s written operating policies
    and procedures.

    OIG Comment

    The Corporation’s planned actions meet the intent of the recommendations.
    However, as of January 15, 2010, the VMSU’s written operating policies and
    procedures included sections that were not complete. The Corporation should
    ensure the approved written operating procedures for the VMSU do not contain any
    sections that are incomplete and that the operating procedures address the entire
    scope of the VMSU’s operations.

Finding 2. 	 Member files were missing one or more documents and
             documentation in member files lacked required signatures.

Of the 40 member files we reviewed, 14 files (35 percent) had missing documents; and
6 files (15 percent) had two or more missing documents.

The VISTA program does not have formal guidance regarding VISTA member file
maintenance. We created a list of required documents based on two sources: 1) a
March 2001 Microsoft Word document found on the Corporation’s website titled “file
documentation;” and 2) the VMSU Director’s statements. The March 2001 file
documentation includes the End of Service Trust Form which is no longer used. We
determined that complete member files should contain hard copy or electronic
documentation, as follows:

   Member application with references and Sponsor Evaluation (including verification of
    legal residency)
   Oath of Service (V-55)
   Terms, Conditions, and Benefits (TCB) Certification
   Employee’s Withholding Allowance Certificate (W-4)
   Earned Income Credit Advance Payment Certificate (W-5), if applicable



                                            3

   Designation of Beneficiary for Unpaid Compensation of Deceased Civilian Employee
    (SF 1152)
   Designation of Beneficiary or Waiver for CNCS Life Insurance (CNCS Form A-582)
   AmeriCorps*VISTA Member Benefits Election Form (OMB 3045-0054)
   Use of Vehicles or Public Transportation (V-81), if applicable
   Correspondence both with and about the member (for example termination for cause
    letters), if applicable
   Second Choice Prior to 10th Month AmeriCorps*VISTA Member Benefits Election
    Form, if applicable
   Health Care Enrollment form (optional)
   Future Plans or Early Termination Request (V-732)

The VMSU employees are responsible for maintaining official member files. However,
VMSU employees are not responsible for ensuring that members complete their
documents or for collecting documents directly from members. The VMSU is limited to
requesting that CSOs or VISTA sponsors collect and forward missing paperwork
(electronic or hard copy) for inclusion into the members’ files. Further, the VMSU does
not have the authority to return incomplete documents or forms to the CSOs and require
the CSOs to properly complete and/or sign the forms. The VMSU’s total reliance on
CSOs or VISTA sponsors to provide all applicable documents, completed and signed, is
a major factor contributing to incomplete member files.

To be eligible to receive an education award, VISTA members must demonstrate legal
residency. The files of three members lacked evidence that legal residency had been
verified. Incomplete member files impair the ability of Corporation staff to validate a
member’s eligibility for VISTA service and ensure members are not receiving living
allowances and stipends or education awards to which they are not entitled. A table
listing the sampled member files with missing documents is located in Appendix B.

Twenty-four (60 percent) of 40 member files sampled contained one or more documents
that were missing signatures. Twenty-one of the Designation of Beneficiary for Unpaid
Compensation of Deceased Civilian Employee forms (SF 1152) lacked the signature of a
Corporation employee. The signature is necessary to certify that: (1) Corporation
personnel reviewed the designation; (2) designated shares totaled 100 percent; and
(3) no one that signed as a witness was designated as a beneficiary. In addition, one
SF 1152 also lacked beneficiary information and witness signatures. The instructions for
the Designation of Beneficiary for Unpaid Compensation state that, to be valid, the
agency must receive the form prior to the employee’s death. Four Future Plans or Early
Termination Requests (V-732) were missing signatures. One V-732 lacked the Program
Specialist’s signature, one was missing the member’s signature, and two lacked
signatures approving re-enrollment. The Use of Vehicles or Public Transportation (V-81)
form in one member’s file lacked the approval signature. In general, forms are not valid
until signed. A table listing the sampled member files with unsigned documents is
located in Appendix C.

Many of the documents included in a member’s file are completed during the application
process or at the pre-service orientation and collected by CSO personnel. The
documents, when received by the VMSU, often do not have the necessary signatures
and the Corporation lacks procedures that would authorize and require the VMSU to



                                            4

return the documents to the CSOs for signatures. Documents lacking proper signatures
may allow members to receive compensation or benefits to which they are not entitled;
or may result in the erroneous denial of benefits to which members are entitled.

Recommendations

We recommend that the Corporation require:

   2a. 	 The VMSU, in its approved written policies and procedures, to request missing,
         incomplete or unsigned documents from CSOs or VISTA sponsors; and
         document and track the request and receipt of missing, incomplete or unsigned
         documents;

   2b. 	 The VMSU, in its approved written policies and procedures, to notify the
         Directors of VISTA and OFL, of instances in which CSOs and VISTA sponsors
         are overdue in responding to requests for missing or incomplete documents;
         and

   2c. 	 CSOs and VISTA sponsors return requested documents, complete and signed,
         to the VMSU in a timely manner.

   Corporation Response

   The Corporation agrees with the recommendations. It currently requests missing
   documents via e-mail and places them in the member’s file when received. On May
   19, 2010, the Director of the OFL issued a memorandum to CSOs requiring that they
   comply with VMSU requests for missing documents.

   OIG Comment

   The Corporation’s response generally meets the intent of the recommendation. The
   May 19, 2010 memorandum gives the VMSU’s Director the authority to request
   missing, incomplete, or unsigned documents from CSOs and urges the CSOs to
   provide requested document(s) to the VMSU in a timely manner. In its response,
   however, the Corporation did not address how the Corporation would track the
   request and receipt of missing, incomplete, or unsigned documents. In addition, as
   part of its planned corrective action for recommendation 1b, the Corporation should
   determine what member documentation should be maintained by VISTA sponsors
   that have been authorized to pay subsistence allowances directly to members.

Finding 3.   Member serving without Oath of Service in the current member file.

One of the sampled files we reviewed did not have a copy of the member’s Oath of
Service. Unlike other AmeriCorps programs, VISTA members are not required to sign a
contract of service; instead, VISTA members take an Oath in accordance with DVSA §
4954. Terms and periods of service. The Oath is essentially the member’s contract with
the Corporation. According to VMSU personnel, VISTA applicants should not be
activated if the VMSU employee does not have a copy of their Oath. The Oath is the
only document that, if missing, would prevent VMSU employees from activating a VISTA
member. The VISTA program lacks regulation and policies and procedures that confirm
the VMSU’s statement as to whether the Oath must be in the member’s file prior to


                                          5

activating the member. Without a properly signed Oath, the member is not obligated to
abide by the VISTA rules and regulations.

The member in question served multiple terms on different projects with and without a
break in service. If a member serves multiple terms without a break in service, they are
not required to re-take the Oath. The member in question has more than one member
file because of the multiple terms of service and different projects. The member is
currently serving without a break in service and would not have been required to re-take
the Oath. The member’s Oath may be in the member’s file for a previous project on
which the member served, now in archived records. We did not request to examine
archived files.

Recommendation

We recommend that the Corporation, for VISTA members serving multiple terms:

   3. 	   Retain a copy of the Oath of Service from the prior term or a newly executed
          Oath of Service in the members’ current file.

   Corporation Response

   Members who serve multiple terms do so without a break in service. Therefore, the
   Member Registration (Oath of Service) would be in the member’s file. The
   Corporation will require that a new Oath of Service is executed for VISTA alumni with
   more than a 12-month break in service.

   OIG Comment

   The Corporation’s planned action to ensure that an Oath of Service is in the
   member’s file meets the intent of this recommendation.

Finding 4. 	 Documentation used to establish citizenship or permanent resident
             alien status was missing or insufficient.

The files of 30 members lacked support demonstrating that they were eligible to receive
education awards as VISTA members. Three member files lacked supporting
documentation of any kind that showed that legal residency was verified. In addition, the
documentation used to verify the legal residency of 27 members was insufficient
because only a driver’s license (DL) with a Social Security Number (SSN) was used in
26 instances. In the remaining instance, only a foreign passport was used. A table
listing the sampled member files with insufficient or missing proof of legal residency is
located in Appendix D.

Section 146 of the National Community Service Act of 1990, as amended (NCSA), 42
U.S.C. 12602, requires that to be eligible for an education award an individual must be a
citizen or national or lawful permanent resident alien of the United States. The Code of
Federal Regulations 45 C.F.R. § 2526.10(a) Eligibility for an Education Award also
requires that “[a]n individual is eligible to receive an education award from the National
Service Trust if the individual – [i]s a citizen, national, or lawful permanent resident alien
of the United States…” Section 123 of the NCSA, 42 U.S.C. 12573, also states that
“[t]he Corporation may approve of any of the following service positions as an approved


                                              6

national service position that includes the national service educational award described
in subtitle D of this subchapter as one of the benefits to be provided for successful
service in the position: … [a] position involving service as a VISTA volunteer under title I
of the Domestic Volunteer Service Act of 1973 (42 U.S.C. 4951 et seq.)”

45 C.F.R. § 2522.200 provides for use of specific documents to establish legal residency
for title C programs. VISTA is not a title C program and similar regulations specific to
VISTA do not exist. Because legal residency is required for National Service Trust
positions and AmeriCorps*State, National, and VISTA positions (when an education
award is selected) are all National Service Trust positions, we assert that the documents
used to establish status should be equally rigorous.

A DL and SSN are not among the specific documents listed in 45 C.F.R. § 2522.200 that
establish legal residency. Depending on the state of residence, legal residency is not
required to obtain a driver’s license; and a SSN, in some instances, can be issued for
persons who are not citizens or legal permanent resident aliens. 45 C.F.R. § 2522.200
permits the use of unspecified secondary documents with the written approval of the
Corporation. When asked for a specific documents approved by VISTA to verify legal
residency, the Director of VISTA provided a document titled “Documentation of Members
as a U.S. Citizen, National or Permanent Resident.” This document gives blanket
approval for CSOs and VISTA sponsors to use a DL and SSN to verify status. VISTA’s
“Documentation of Members as a U.S. Citizen, National, or Permanent Resident” form
states that in lieu of primary documentation (List A), providing a secondary document
from List B and one from List C is acceptable. A DL is included in List B and a Social
Security Card is included in List C. The Corporation could not provide documentation
authorizing or provide the rationale for including documents in Lists A, B, or C. A foreign
passport is not included in Lists A, B or C.

Of the 27 members whose legal residency is questionable, 18 members elected to
receive an end-of-service education award. Additionally, one of the three members for
whom documentation of legal residency verification was missing elected to receive an
education award. Verifying the legal residency of VISTA applicants by using a document
or combination of documents that can be issued to persons without legal residency may
allow ineligible individuals to receive education awards to which they are not entitled.

Recommendations

We recommend that the Corporation:

   4a. 	 Establish specific guidance and regulation, in coordination with finding 1a,
         regarding the documents CSOs and sponsors use to verify VISTA applicants’
         U.S. citizenship, national, or legal permanent resident alien status for the
         VISTA program that are similar to the requirements in 45 C.F.R. §2522.200;
         and

   4b. 	 Follow the requirements in 45 C.F.R. §2522.200 until specific guidance and
         rationale or justification has been established regarding primary and secondary
         documents that verify U.S. citizenship, national, or legal permanent resident
         alien status has been established for the VISTA program.




                                             7

   Corporation Response

   The VMSU is currently following the citizenship verification policies of VISTA. VISTA
   is working with the Office of General Counsel to ascertain if the documentation
   recommended by the OIG is appropriate for use by VISTA.

   OIG Comment

   We acknowledge VISTA’s service eligibility requirements differ from other
   AmeriCorps programs. In addition, the end-of-service benefit options for VISTA
   members do not have the same eligibility requirements. However, in order for a
   VISTA member to select the education award as their end-of-service benefit, the
   member must meet the same requirements as AmeriCorps State and National
   participants. 45 C.F.R. § 2526.10(a) Eligibility for an Education Award requires that
   “[a]n individual is eligible to receive an education award from the National Service
   Trust if the individual – [i]s a citizen, national, or lawful permanent resident alien of
   the United States…” Individuals can obtain a driver’s license and Social Security
   card without being a citizen, national, or lawful permanent resident alien of the
   United States. Our review of VISTA member files did not provide evidence that a
   separate verification was performed to ensure that members selecting the end-of-
   service education award were eligible to it.


                         OBJECTIVE, SCOPE, AND METHODOLOGY

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our finding and conclusions based on our audit
objectives.

The objectives of the audit were to determine whether VISTA member files were
complete; payments of living allowance were supported by validated information;
education awards and stipends earned were supported; PII was adequately protected;
and internal controls were adequate. The audit focused on activities, transactions, and
events related to VMSU operations that are a result of the American Recovery and
Reinvestment Act (ARRA) of 2009. Non-ARRA activities were also included.

We selected a sample of 40 VISTA members (serving at any time between October 1,
2008 and December 9, 2009) and reviewed their files for completeness and documented
whether all required files, electronic and hard copy, were present in the member files.
We interviewed VMSU management and staff. We reviewed policies and procedures
related to operation of the VMSU. We conducted our audit between December 14, 2009
and April 13, 2010.


                                       BACKGROUND

AmeriCorps*VISTA is the national service program designed to fight poverty and build
economic opportunity. VISTA engages individuals 18 years and older in a year of


                                             8

fulltime service in our nation's poorest urban and rural areas, working to build the
organizational, administrative and financial capacity of programs that help pull and keep
Americans out of poverty. VISTA members are assigned to community organizations
(e.g. non-profit, faith-based) and public agencies to help the organizations build on
locally-driven solutions to both the causes of poverty as well as the problems that arise
in poverty-stricken communities. Rather than providing cash grants, the VISTA program,
usually, places individual VISTA members with sponsoring organizations.

The Corporation created the VMSU, in October 2007, to relieve CSO staff of the burden
of VISTA administrative support and to allow them to focus on identifying new VISTA
projects and managing existing projects. A seven-person task force sought to identify a
better way to provide VISTA administrative support. It determined that centralized
lifecycle support and additional automated (electronic) processes would improve VISTA
support. The intent is for the VMSU to provide consistency in processing and providing
information, prevent duplicative effort and overhead costs, and control the quality of
customer service. The VMSU handles administrative functions and activities such as:

[J   Arranging travel for members to attend pre-service orientation;
[J   Processing members into eSPAN for payroll related actions;
[J   Answering member's questions during the year of service;
[J   Assisting members with In-Service Training (1ST) as needed; and
[J   Processing early terminations, requests for extensions and re-enrollments, or close
     of service of members.


                                    EXIT CONFERENCE

We conducted an exit conference with Corporation representatives on April 13, 2010.
The Corporation's response to the draft report was summarized after each
recommendation and included, in its entirety, as Appendix A of this report.




Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service




                                             9

             APPENDIX A 


Corporation’s Response to Draft Report 

NATIONAL & 

COMMUNITY 

SERVICEttl1 


To: 	            Stuart Axenfield, Assistant Inspector General for Audit   .a
From: 	          Mike Berning, Field Liaison Director       (Y6 ~ ~
Cc: 	            Paul Davis, Acting Director for VISTA
                 Jerry Thompson, Director, VISTA Member Support Unit
                 Kristin McSwain, Chief of Program Operations
                 James Siegal, Chief of Staff
                 Patrick Corvington, Chief Executive Officer
                 William Anderson, Chief Financial Officer
                 Andrea Grill, Associate General Counsel, Office of General Counsel
                 Rocco Gaudio, Deputy Chief Financial Officer
                 Bridgette Roy, Audit Resolution Tracking Coordinator

Date: 	          June 1,2010

Subj: 	          Response to OIG Draft Report on the Audit of VISTA Member Support Unit
                 (VMSU)


Thank you for the opportunity to comment on the OIG's audit of the VISTA Member Support
Unit (VMSU) which is located in Austin, Texas. This response is the Corporation's draft
management decision. As you know, we established the VMSU in 2007 and continue to make
operational improvements as well as incorporate new features ofthe My AmeriCorps portal as
they become available. The OIG's draft report has been helpful to the VISTA program and to
VMSU staff in this process.

The Corporation is pleased that, while there are some compliance issues noted in your review of
the VMSU, they are largely related to recordkeeping. None of the issues poses the risk of
financial harm to a VISTA member. Members are properly paid living allowances, education
awards, and stipends with supporting evidence.

Finding 1. The VMSU lacked approved written operating policies and procedures.

Recommendations: We recommend that the Corporation:

1a.       Establish VISTA regulations that implement applicable public law; and

                                                                                              1
1b.       Approve written operating policies and procedures for the VMSU.

      Management Decision: The Corporation agrees with the recommendations and is in the
      process of revising its regulations, which are currently located at 45 CFR, Chapter XII.
      Specific VMSU procedures and policies, however, will be implemented through internal
      policy and guidance rather than public regulations. On January 15, 2010, I signed off on the
      VMSU's written operating policies and procedures.

Finding 2. Member files were missing one or more documents and documentation in
member files lacked required signatures. ***

Recommendations: We recommend that the Corporation require:

2a. 	 The VMSU, in its approved written policies and procedures, to request missing, incomplete
      or unsigned documents from CSOs or VISTA sponsors; and document and track the request
      and receipt of missing, incomplete or unsigned documents;
2b. The VMSU, in its approved written policies and procedures, to notify the Directors of
      VISTA and OFL, of instances in which CSOs and VISTA sponsors are overdue in
      responding to requests for missing or incomplete documents; and
2c. CSOs and VISTA sponsors return requested documents, complete and signed, to the VMSU
      in a timely manner.

*** The four member files missing the W-4 (#'s 20, 26, 38, and 39 on Appendix B) were
enrolled in projects supported with a program grant that authorized the sponsors to pay the
subsistence allowances directly to the members; therefore, there is no W -4 entry into the
CNCSNISTA payroll database for these members and no need to have these forms on file.

      Management Decision: The Corporation agrees with recommendation 2a. The current
      practice is that emails sent to VISTA members and Corporation state office staff requesting
      missing documents are filed in the member's file. When the missing document is received, it
      is placed in the member's file.

      The Corporation agrees with recommendations 2b and 2c. On May 19, 2010 we sent a memo
      to Corporation state offices requiring that they comply with VMSU director requests for
      missing documents (see attached).

Finding 3. Member serving without Oath of Service in the current member file.

Recommendation: We recommend the Corporation, for VISTA members serving multiple
terms, retain a copy of the Oath of Service for the prior term or a new Oath of Service in the
members' current file.

      Management Decision: The vast majority of VISTA members who serve multiple terms
      serve consecutive terms; therefore, the VISTA Member Registration Form (your referenced
      "Oath of Service" form) would be in the file. In the one example cited, the member was
      reinstated after a break in service and the member's file had been archived. In the future, for
      alumni with more than a 12-month break in service, a newly executed VISTA Member
      Registration Form will be required.

                                                                                                    2
Finding 4. Documentation used to establish citizenship or permanent resident alien status
was missing or insufficient.

Recommendations:

4a. Establish specific guidance and regulation, in coordination with finding 1a, regarding the
documents CSOs and sponsors use to verify VISTA applicants' u.S . citizenship, national, or
legal permanent resident alien status for the VISTA program that are similar to the requirements
in 45 C.F.R. §2522.200; and

4b. Follow the requirements in 45 C.F.R. §2522.200 until specific guidance and rationale or
justification has been established regarding primary and secondary documents that verify U.S.
citizenship, national, or legal permanent resident alien status has been established for the VISTA
program.

   Management Decision: The VMSU is currently following the citizenship verification
   policies of VISTA. VISTA is working with the Office of General Counsel to ascertain if the
   documentation recommended by the Office of Inspector General - i.e. , similar to that
   required for AmeriCorps*State and National members under 45 C.F.R. §2522.200 -- is
   appropriate for use by VISTA.


   Attachment




                                                                                                 3
MEMORANDUM 


To:           State Program Directors

cc:           Paul Davis, Acting Director, VISTA
              Jerry Thompson, Director, VISTA Member Support Unit

Date:         May 19, 2010

From:         Mike Berning, Director, Office of Field Liaison

Subject:      Collecting VISTA Member Documents



We need your help to ensure that the VISTA Member Support Unit (VMSU) has all
required documents in VISTA member files. The VMSU is the official repository for
member files and is responsible for file completeness.

To this end, the VMSU Director has the authority to collect member documents from
state offices when such documents are missing from member files. When VMSU staff
seek your support to obtain missing documentation, it is imperative that you work with
members and project sponsors to collect the missing items and provide them to the
VMSU in a timely manner.
                                         APPENDIX B


                            SAMPLED FILES WITH MISSING DOCUMENTS
                            Electronic Documents                  Hard Copy Documents
                                                                     Designation      Future Plans or
 Member                           Life     Legal
             Project Code   W-4                      Oath   TCB     of Beneficiary   Early Termination
Identifier                        Ins    Residency
                                                                       (SF 1152)      Request (V-732)
    3        07VSWOK008                                                                     
    9        10VSAVT001                                                  
   11        06VSWTX030                                     
   19        09RVWNM004                                                                     
   20        06VSANH001                                                                   
   22        08VSWMO006                                                  
   26        09RVPWA010          
   32        07VSNMN006           
   33        07VSNMN006                     
   36        06VSSVA006                     
   37        06VSNMN019                                                                   
   38        07VSWAZ010                                    
   39        06VSWNM005                                    
   40        06VSWAR009                             
                                         APPENDIX C 


                SAMPLED FILES WITH DOCUMENTS LACKING SIGNATURES
                                                     Future Plans or
 Member                        Designation of                           Relocation Travel
             Project Code                           Early Termination
Identifier                  Beneficiary (SF 1152)                            (V-81)
                                                     Request (V-732)
    1        06VSSVA008              
    4        06VSNIA002              
    5        07VSNMI016                                    
    6        09VSWKS003              
    8        09VSWTX008              
    9        10VSAVT001                                    
   11        06VSWTX030              
   12        07VSNIN006              
   15        06VSNMN013              
   17        09VSNOH004              
   18        08VSSFL004              
   19        09RVWNM004              
   20        06VSANH001              
   21        06VSPWA014                                    
   23        07VSPWA007                                                       
   25        06VSNMN019              
   26        09RVPWA010              
   27        08VSPWA007              
   28        09VSWTX020                                   
   30        06VSWTX007              
   31        07VSSFL019              
   33        07VSNMN006              
   36        06VSSVA006              
   39        06VSWNM005              
                                                                     APPENDIX D 


                      SAMPLED FILES WITH INSUFFICIENT OR MISSING PROOF OF LEGAL RESIDENCY
                                  Proof of Legal                                       Proof of Legal                                       Proof of Legal
 Member                             Residency           Member                           Residency           Member                           Residency
               Project Code                                         Project Code                                         Project Code
Identifier                                             Identifier                                           Identifier
                              Insufficient   Missing                               Insufficient   Missing                               Insufficient   Missing

    1          06VSSVA008                                17        09VSNOH004                                29        07VSWLA004          

    2          07VSARI009                                18        08VSSFL004                                30        06VSWTX007          

    3          07VSWOK008                                19        09RVWNM004                                31        07VSSFL019          

    5          07VSNMI016                                20        06VSANH001                                32        07VSNMN006          

    6          09VSWKS003                                21        06VSPWA014                                34        09VSSVA003          

    7          06VSANY016                                22        08VSWMO006                                37        06VSNMN019          

    9          10VSAVT001                                24        06VSNIL006                                38        07VSWAZ010          

   11          06VSWTX030                                25        06VSNMN019                                33        07VSNMN006                      

   13          08VSPCA006                                27        08VSPWA007                                36        06VSSVA006                      

   14          08VSSTN007                                28        09VSWTX020                                40        06VSWAR009                      




             The shaded cells in the table above indicate instances where end of service education
             award was selected by members whose verification of legal residency was either
             insufficient or missing.
